HHS/OIG, Audit - "Review of Improper Temporary Assistance for Needy
Families Basic Assistance Payments in Michigan for July 1 Through December 31,
2005," (A-05-06-00068)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Improper Temporary Assistance for Needy
Families Basic Assistance Payments in Michigan for July 1 Through December 31,
2005," (A-05-06-00068)
November 13, 2007
Complete
Text of Report is available in PDF format (592 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The State agency made some Temporary Assistance for Needy
Families (TANF) basic assistance payments that did not meet Federal and State
requirements and did not adequately document all eligibility and payment
determinations.  Based on its sample results, we estimated that the overall
TANF improper payment rate was 40 percent of the Federal dollars expended and 34
percent of the number of payments made for basic assistance during the 6-month
audit period.
We recommended that the State agency (1) develop criteria specifying the
circumstances that warrant a hardship exception for extending TANF basic
assistance payments beyond the 60-month Federal lifetime limit, (2) use the
results of this review to help ensure compliance with Federal and State TANF
requirements, (3) determine the current eligibility of all recipients identified
in this review as improperly enrolled in the TANF program and ensure that
further assistance is denied for those who remain ineligible, and (4)
recalculate assistance budgets for all recipients identified in this review as
having received improperly calculated payments.  The State agency generally did
not agree with the recommendations.